TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Improper Payments Elimination and
                         Recovery Act Risk Assessments
                       of Revenue Programs Are Unreliable



                                        January 31, 2013

                              Reference Number: 2013-40-015




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


IMPROPER PAYMENTS ELIMINATION                        and revenue program fund. TIGTA determined
AND RECOVERY ACT RISK                                that the risk assessment process adequately
ASSESSMENTS OF REVENUE                               reflects the risk of improper payments in the
PROGRAMS ARE UNRELIABLE                              IRS’s administrative program funds.
                                                     However, the process does not provide a
                                                     reliable assessment of the risk of improper
Highlights                                           payments in the IRS’s revenue program funds.
                                                     The IRS’s review process for revenue program
Final Report issued on January 31, 2013              fund risk assessments is informal and did not
                                                     always adhere to required guidelines for
Highlights of Reference Number: 2013-40-015
                                                     performing the assessment. The design of the
to the Internal Revenue Service Chief Financial
                                                     Questionnaire does not provide an adequate
Officer.
                                                     assessment of the risk associated with tax
IMPACT ON TAXPAYERS                                  refunds. For example, not all of the questions
                                                     apply to tax refund payments. Depending on the
Improper payments cost taxpayers billions of         response to these questions, the program’s risk
dollars annually across Federal programs. The        score can be affected. In addition, questions
IRS estimates it paid $15.2 billion in improper      pertaining to other areas of potential risk within
Earned Income Tax Credit payments in Fiscal          tax administration are not included in the
Year 2011. An improper payment is any                Questionnaire.
payment that should not have been made or that
was made in an incorrect amount under                Moreover, other issues, such as insufficient
statutory, contractual, administrative, or other     verification of identity or income, can pose a
legally applicable requirements. Ineffective risk    significant risk for improper payments. Prior
assessment processes can affect                      TIGTA reports indicate that this risk could be
Government-wide actions to protect taxpayer          significant. As a result of identity theft, the IRS
dollars from waste, fraud, and abuse.                may have paid $5.2 billion in potentially
                                                     fraudulent tax refunds. TIGTA also previously
WHY TIGTA DID THE AUDIT                              found the verification process for Individual
                                                     Taxpayer Identification Number applications was
The Improper Payments Elimination and                substantially deficient. More than 481,500 tax
Recovery Act (IPERA) of 2010 increased               returns associated with these applications had
agency accountability for reducing improper          claims for the Additional Child Tax Credit totaling
payments in Federal programs. This audit was         more than $916 million.
initiated because the IPERA requires TIGTA to
assess the IRS’s compliance with improper            WHAT TIGTA RECOMMENDED
payment requirements. The objective of this
review was to evaluate the adequacy of the           TIGTA recommended that the IRS work with the
IRS’s Fiscal Year 2011 assessment of the risk of     Department of the Treasury to better identify the
improper payments in those programs identified       IRS programs to be included in the risk
by the Department of the Treasury. The               assessments for improper payments and refine
Department of the Treasury identified 12 IRS         the Questionnaire to ensure that all questions
administrative program funds and 16 revenue          are applicable to tax administration and more
program funds for the Fiscal Year 2011 IPERA         accurately reflect the risks associated with tax
risk assessment process.                             refund payments, develop a formal process for
                                                     assigning responsibility for the completion of the
WHAT TIGTA FOUND                                     risk assessments, and develop a process to
                                                     ensure that the Department of the Treasury
The IRS used the Department of the Treasury’s        guidance is being followed.
Improper Payment Risk Assessment
Questionnaire (the Questionnaire) and guidance       The IRS agreed with our recommendations and
to complete the Fiscal Year 2011 risk                plans to take the corrective actions suggested.
assessment for each designated administrative
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              January 31, 2013


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Improper Payments Elimination and
                                 Recovery Act Risk Assessments of Revenue Programs Are
                                 Unreliable (Audit # 201240011.02)

 This report presents the results of our review to evaluate the adequacy of the Internal Revenue
 Service’s Fiscal Year 2011 assessment of the risk of improper payments in the Treasury Fund
 Accounts identified by the Department of the Treasury as part of the requirements of the
 Improper Payments Elimination and Recovery Act of 2010.1 The scope of this review was
 limited to an analysis of the design of the Fiscal Year 2011 Risk Assessment Questionnaire and
 an assessment of the actions taken by the IRS to complete the risk assessment. This audit was
 included in the Treasury Inspector General for Tax Administration’s Fiscal Year 2012 Annual
 Audit Plan and addresses the major management challenge of Fraudulent Claims and Improper
 Payments.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Augusta R. Cook, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).




 1
     Pub. L. 111-204, 124 Stat. 2224.
                                 Improper Payments Elimination and Recovery Act
                              Risk Assessments of Revenue Programs Are Unreliable




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Improper Payments Elimination and Recovery Act
          Risk Assessments of Revenue Program Funds Are
          Unreliable ...................................................................................................... Page 4
                    Recommendations 1 through 3:......................................... Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Internal Revenue Service Programs Identified
          for Improper Payment Risk Assessments ..................................................... Page 16
          Appendix V – Treasury Inspector General for Tax Administration
          Reports Issued on Refundable Tax Credits ................................................... Page 18
          Appendix VI – Management’s Response to the Draft Report ...................... Page 19
           Improper Payments Elimination and Recovery Act
        Risk Assessments of Revenue Programs Are Unreliable




                   Abbreviations

EITC         Earned Income Tax Credit
IPERA        Improper Payments Elimination and Recovery Act of 2010
IRS          Internal Revenue Service
ITIN         Individual Taxpayer Identification Number
TIGTA        Treasury Inspector General for Tax Administration
                           Improper Payments Elimination and Recovery Act
                        Risk Assessments of Revenue Programs Are Unreliable




                                           Background

In Fiscal Year 2011, Federal agencies reported an estimated $115 billion in improper payments.1
The Improper Payments Information Act of 2002 (hereafter referred to as the Improper Payments
Act)2 requires Federal agencies to improve the accuracy and integrity of Federal payments and
report on their progress. Figure 1 shows the amount of improper payments reported by Federal
agencies since Fiscal Year 2004, the first year that Federal agencies Government-wide were
required to report improper payment information under the Improper Payments Act.
                              Figure 1: Federal Improper Payments
                               for Fiscal Years 2004 Through 2011




               Source: Government Accountability Office reports included in the Financial Report
               of the U.S. Government for Fiscal Years 2004 through 2011.

On July 22, 2010, President Obama signed into law the Improper Payments Elimination and
Recovery Act of 2010 (IPERA).3 The IPERA amends the Improper Payments Act by redefining
the definition of “significant improper payments” and strengthening agency reporting
requirements. The IPERA also made agencies accountable for reducing improper payments.


1
  An improper payment is any payment that should not have been made or that was made in an incorrect amount
under statutory, contractual, administrative, or other legally applicable requirements. Incorrect amounts are
overpayments and underpayments made to eligible recipients.
2
  Pub. L. No. 107-300, 116 Stat. 2350.
3
  Pub. L. 111-204, 124 Stat. 2224.
                                                                                                         Page 1
                           Improper Payments Elimination and Recovery Act
                        Risk Assessments of Revenue Programs Are Unreliable



The Department of the Treasury administers the annual improper payment risk
assessment for all Treasury bureaus.
The first step in complying with the IPERA is for agencies to conduct an assessment of their risk
for significant improper payments. The Department of the Treasury administers the annual risk
assessment process for all Treasury bureaus, including the risk assessment performed by the
Internal Revenue Service (IRS). It identifies which programs must be included in the IRS’s risk
assessment for improper payments using bureau funding sources and disbursements referred to
as “fund groups.” The Department of the Treasury selects the fund groups that are to be assessed
based on each fund group’s materiality to the IRS financial statements.
The Department of the Treasury identified 12 IRS administrative program funds and 16 revenue
program funds for the Fiscal Year 2011 IPERA risk assessment process.4 Administrative
program funds included, for example:
         Payments for information technology
          investments.                                       The Department of the Treasury
                                                               identifies the programs that
         Business systems modernization.                      the IRS must assess for the
                                                                risk of improper payments.
         Recovery Act administrative expenses.
         Special fund user fees.
Revenue program funds generally included tax refunds of various tax credits.
The Department of the Treasury also provides its bureaus with an IPERA Risk Assessment
Questionnaire (hereafter referred to as the Questionnaire) and related guidance for conducting
the risk assessment of each identified program. The Questionnaire automatically computes a risk
score for a program based on the IRS’s responses to the questions contained in the
Questionnaire. The risk score determines whether there is a low, medium, or high risk of
improper payments in a program. The Department of the Treasury establishes the level of risk
for a program’s improper payments based on risk score ranges. For example, the Department of
the Treasury considers programs with a risk score of zero to 11 as low risk, 12 to 28 as medium
risk, and 29 and greater as high risk. The IRS completed and forwarded the results of the risk
assessments for all identified programs to the Department of the Treasury by the end of
July 2011.
The IPERA requires Federal agencies to estimate improper payments for all programs with
significant improper payments. The IPERA defines a program as having significant improper
payments when improper payments exceed both 2.5 percent of program outlays and $10 million
of all program or activity payments made during the fiscal year reported or $100 million (at any


4
    See Appendix IV.
                                                                                          Page 2
                            Improper Payments Elimination and Recovery Act
                         Risk Assessments of Revenue Programs Are Unreliable



percent of program outlays).5 If an agency determines that significant improper payments exist
in a program, the agency must report to the Office of Management and Budget the amount of
improper payments, the causes of the improper payments, the actions taken to address the causes,
and the agency’s plans for reducing improper payments. The Department of the Treasury
requires its bureaus, including the IRS, to provide the required information for inclusion in the
Department of the Treasury Annual Financial Report.
The only program the IRS has designated as high risk for improper payments is the Earned
Income Tax Credit (EITC) Program. The IRS first reported EITC improper payments under the
Improper Payments Act in Fiscal Year 2004. Both the IRS and the Department of the Treasury
agree that the EITC Program continues to be at high risk for significant improper payments. As
                                           such, the Department of the Treasury did not require
                                           the IRS to complete a Fiscal Year 2011 risk
       The only program the IRS has        assessment of the EITC Program.
    designated as high risk for improper
      payments is the EITC Program.           The IPERA requires the agency Inspector General
                                              to assess the agency’s compliance with the IPERA
                                              requirements. The scope of our review was to
determine whether the IRS’s IPERA risk assessment process provides a reasonable assessment of
the level of risk associated with the IRS programs evaluated. This review was performed at the
IRS Headquarters in the Office of the Chief Financial Officer in Washington, D.C., the IRS
Beckley Finance Center in Beckley, West Virginia, and the IRS Wage and Investment Division
Office in Atlanta, Georgia, during the period December 2011 through September 2012. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




5
 Beginning in Fiscal Year 2013, improper payments will be deemed significant if improper payments exceed both
1.5 percent and $10 million of all program or activity payments made during the fiscal year reported or $100 million
at any percent of program outlays.
                                                                                                            Page 3
                            Improper Payments Elimination and Recovery Act
                         Risk Assessments of Revenue Programs Are Unreliable




                                      Results of Review

Improper Payments Elimination and Recovery Act Risk Assessments
of Revenue Program Funds Are Unreliable
The IRS completed a Fiscal Year 2011 risk assessment for each administrative and revenue
program fund designated by the Department of the Treasury as required by the IPERA. The risk
assessment process resulted in a reasonable assessment of the risk of improper payments for the
IRS administrative programs. However, the results of the
risk assessment may not accurately reflect the risk of
improper payments in the IRS’s revenue program funds.
A review of a judgmental sample of three of the
12 administrative program funds designated for review by
the Department of the Treasury indicates the risk
assessment process for administrative programs is reliable.6
The risk assessments for these funds were completed by a
team of reviewers at the IRS Beckley Finance Center with
the necessary expertise to address the payment risks of each administrative fund. In addition, the
IRS Beckley Finance Center provided adequate documentation to support its assessment of those
risks. The IRS Beckley Finance Center determined all of the IRS’s administrative program
funds had a low risk of significant improper payments.
However, a review of a judgmental sample of seven of the 16 revenue program funds designated
for review by the Department of the Treasury identified the following deficiencies in the IRS’s
risk assessment process:
       Programs selected for evaluation were defined based on fund groups rather than by
        significant broad-based activities.
       The Questionnaire does not effectively address risks associated with tax refund payments.
       Risk assessments were not performed in compliance with Department of the Treasury
        guidelines.
The IRS determined that the 15 revenue program funds it assessed had a low risk for improper
payments.7 However, prior Treasury Inspector General for Tax Administration (TIGTA) reports

6
 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
7
 The Department of the Treasury identified 16 revenue program funds for risk assessment. However, the IRS was
not required to complete a risk assessment of the EITC Program.
                                                                                                            Page 4
                            Improper Payments Elimination and Recovery Act
                         Risk Assessments of Revenue Programs Are Unreliable



indicate that the risk of improper payments for some of the programs the IRS evaluated could be
significant. For example, in September 2011, we reported that the IRS may have erroneously
allowed approximately $3.2 billion in American Opportunity Tax Credits.8 In February 2012, we
reported that the IRS erroneously allowed First-Time Homebuyer Credits totaling approximately
$23.21 million.9 We also reported the IRS paid an estimated $11 million in erroneous Adoption
Credits during Processing Year 2011.10
In Fiscal Year 2011, Federal agencies reported $115 billion in estimated improper payments.
The IPERA increases agencies’ accountability for identifying the causes of improper payments,
reducing improper payments, and recovering payments made in error. However, an agency’s
efforts to reduce improper payments depends on the effectiveness of the processes used to
identify programs and activities that present the greatest risk of improper payments to the Federal
government. Ineffective risk assessment processes can affect the Government-wide actions to
protect taxpayer dollars from waste, fraud, and abuse.
The definition of an IRS program affects the reliability of the risk assessment of
improper payments
The Department of the Treasury identified IRS programs based on the fund groups associated
with the Department’s annual budget. However, the IRS administers the tax law by establishing
broad programs focused on helping taxpayers meet their tax responsibilities, i.e., processing tax
returns and enforcing the law to ensure that everyone meets their obligation to pay taxes.
Limiting the assessment of the risk of improper payments to fund groups, for example,
verification of one tax credit, may significantly underestimate the risk of improper payments to
tax administration.
The revenue program funds that the Department of the Treasury selected for review generally
represent specific individual credits or payments (line items on the tax returns).11 While
refundable tax credits12 increase the tax refund a taxpayer can receive, other issues concerning
tax administration, such as the verification of income or the issuance of Taxpayer Identification
Numbers,13 can pose a significant risk for improper payments.


8
  TIGTA, Ref. No. 2011-41-083, Billions of Dollars in Education Credits Appear to Be Erroneous (Sept. 2011).
9
  TIGTA, Ref. No. 2012-41-013, The Internal Revenue Service Disallowed Erroneous First-Time Homebuyer
Credits Totaling $1.6 Billion; However, Its Examination Resources Could Have Been Used More Effectively
(Feb. 2012).
10
   TIGTA, Ref. No. 2012-40-065, Processes to Address Erroneous Adoption Credits Result in Increased Taxpayer
Burden and Credits Allowed to Nonqualifying Individuals (June 2012).
11
   See Appendix IV.
12
   A refundable credit is not limited to the amount of an individual’s tax liability and can result in a Federal tax
refund that is larger than the amount of a person’s Federal income tax withholding for that year.
13
   A nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the taxpayer,
the Taxpayer Identification Number is an Employer Identification Number, a Social Security Number, or an
Individual Taxpayer Identification Number.
                                                                                                           Page 5
                            Improper Payments Elimination and Recovery Act
                         Risk Assessments of Revenue Programs Are Unreliable



In July 2012, the TIGTA completed two audits which reported the following:
        The IRS did not have the information it needed to timely verify the income and
         withholding reported on individual tax returns.14 As a result, the IRS may have paid
         $5.2 billion in potentially fraudulent tax refunds on 1.5 million tax returns in Tax
         Year15 2010. We estimated the IRS could pay $21 billion in questionable tax refunds
         over the next five years. Yet the IRS’s program for verifying withholding was not
         identified by the Department of the Treasury for assessment because the Department
         does not have a fund group specifically for the payment of refunds of withholding in the
         annual budget.
        The Individual Taxpayer Identification Number (ITIN) application review and
         verification process is so deficient that there is no assurance that ITINs are not being
         assigned to individuals submitting questionable applications.16 The amount of Federal
         funds individuals have access to once they have an ITIN assigned is substantial. For
         example, in Processing Year17 2011, claims for the refundable credit known as the
         Additional Child Tax Credit by ITIN filers totaled $4.2 billion. For the ITINs assigned
         in Processing Year 2011, we identified more than 481,500 (71 percent) of the tax returns
         associated with the ITIN application had claims for the Additional Child Tax Credit
         totaling more than $916 million. However, the IRS’s program for reviewing and
         verifying the requests for ITINs was not identified by the Department of the Treasury for
         risk assessment of improper payments.
Had the IRS assessed the risk of improper payments in its income and withholding verification
program or the ITIN program, it may have been required to report on the improper payments
made in the programs in the Department of the Treasury’s Annual Financial Report. The IPERA
requires agencies to report on any program with potential improper payments of more than
2.5 percent of program outlays and $10 million of all program payments or $100 million in
improper payments. The amount of potential improper payments we identified significantly
exceeds this threshold.
The IPERA requires agencies to assess all programs for the risk of improper payments, and the
Office of Management and Budget defines a program as any activity or set of activities
recognized as a program by the public, the Office of Management and Budget, or Congress.
How agencies categorize or define their programs can affect the reliability of the annual


14
   TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting From
Identity Theft (Jul. 2012).
15
   The 12-month period for which tax is calculated. For most individual taxpayers, the tax year is synonymous with
the calendar year.
16
   TIGTA, Ref. No. 2012-42-081, Substantial Changes Are Needed to the Individual Taxpayer Identification
Number Program to Detect Fraudulent Applications (Jul. 2012).
17
   The calendar year in which the tax return or document is processed by the IRS.
                                                                                                           Page 6
                             Improper Payments Elimination and Recovery Act
                          Risk Assessments of Revenue Programs Are Unreliable



improper payment risk assessment and undermine the intent of the Federal Government’s efforts
to reduce improper payments Government-wide.
For example, had the IRS been required to report on improper payments in its income and
withholding verification and ITIN programs, the IRS would have had to provide the following
information to the Department of the Treasury for inclusion in its Annual Financial Report.
          The root causes of the improper payments and actions taken to address the root causes.
          The IRS’s annual goal for reducing improper payments and its plans for achieving the
           goal.
          Efforts to recover improper payments.
          The sufficiency of the agency’s information systems and other infrastructure in reducing
           improper payments to agency target levels.
          Statutory or regulatory barriers that limit corrective actions to reduce improper payments
           and the actions taken to overcome these barriers.
Although the IRS did not select the programs for the Fiscal Year 2011 risk assessment, the IRS
has a responsibility under the Department of the Treasury guidance to ensure that the programs
selected most accurately reflect the IRS’s programs and activities. The Department of the
Treasury instructed its bureaus to review the inventory of programs selected for the improper
payment risk assessment to determine if the groupings best represent the programs within each
bureau. Had the IRS proposed an alternative grouping of programs, the risk assessment process
would have resulted in a more reliable depiction of the risk of improper payments in tax
administration.
The IRS Chief Financial Officer indicated that the Office of Management and Budget has
exempted tax refunds from the improper payment reporting requirements. However, the IRS
was unable to provide us with a copy of the exemption. In addition, the Department of the
Treasury required the IRS to complete a Fiscal Year 2011 improper payment risk assessment of
revenue program funds associated with tax refunds. Such a requirement is not consistent with
management’s assertion that tax refunds are exempted from the improper payment reporting
requirements.
The IPERA Questionnaire did not effectively evaluate risks associated with tax
refund payments
To evaluate the effectiveness of the Questionnaire used to estimate the level of improper
payment risk, we completed the Questionnaire for the EITC Program.18 The Department of the
Treasury did not require the IRS to complete a Fiscal Year 2011 risk assessment of the


18
     The Questionnaire was completed using auditor knowledge of the EITC Program.
                                                                                               Page 7
                              Improper Payments Elimination and Recovery Act
                           Risk Assessments of Revenue Programs Are Unreliable



EITC Program. Our evaluation resulted in a risk score of 12, rating the EITC Program a medium
risk (using the Department of the Treasury’s 12 to 28 points rating). Therefore, the IRS would
not have had to estimate EITC improper payments based on the Questionnaire’s risk score. This
is despite the EITC Program having a reported improper payment rate of 23.5 percent and an
estimated $15.2 billion in improper payments; it ranked third on the Federal Government’s list of
improper payments reported in Fiscal Year 2011.
A review of the Questionnaire found that it contains questions that do not apply to the IRS’s
revenue program funds. Yet an answer to these questions
is required. Specifically, for those questions that do apply         The Fiscal Year 2011
to tax administration, the Questionnaire requires a yes or         Questionnaire  contained
                                                                questions that did not apply to
no response to these questions. Depending on the                 IRS revenue program funds.
response to these questions, the program’s risk score can
be affected. Based on our review, the IRS Chief
Financial Officer recognized that not all of the questions on the Fiscal Year 2011 Questionnaire
applied to tax administration. The Chief Financial Officer requested that the Questionnaire be
modified to allow a response of “not applicable” on 12 of the 62 questions in the Questionnaire.
The Department of the Treasury subsequently modified the Fiscal Year 2012 Questionnaire to
allow a response of “not applicable” for the questions the IRS identified.
However, more needs to be done to ensure that the Questionnaire provides a valid assessment of
the risk of improper tax refund payments. Specifically, the Questionnaire does not address the
specific risks most commonly associated with the verification of taxpayer claims for tax refunds
and credits. For example, the Questionnaire does not ask if the IRS has the information it needs
to validate a taxpayer’s claim for a tax refund at the time the tax return is filed and the tax refund
is paid. TIGTA has repeatedly identified weaknesses in the IRS’s verification of taxpayers’
claims for refundable tax credits at the time tax returns are processed.19
Office of Management and Budget guidance states that when an agency is unable to determine if
a payment is proper because of insufficient or lack of documentation, the payment is to be
considered an improper payment. By not including questions to specifically assess the
sufficiency of documentation in the Questionnaire, the Department of the Treasury may be
systemically underestimating the amount of potential improper payments in the IRS’s revenue
programs.
The IRS did not follow Department of the Treasury guidance
Department of the Treasury guidance states that the risk assessments should be conducted by a
team of reviewers knowledgeable in the types of payments for each of the program fund groups.
This includes being knowledgeable in the requirements that need to be met to authorize the
payments and the financial and administrative controls for the processing of the payments.


19
     See Appendix V for a list of TIGTA reports issued between June 2010 and June 2012.
                                                                                               Page 8
                              Improper Payments Elimination and Recovery Act
                           Risk Assessments of Revenue Programs Are Unreliable



A review of seven Fiscal Year 2011 revenue fund risk assessments identified that the IRS did not
always:20
          Use a team of reviewers to conduct the improper payment risk assessments, but rather
           assigned individual IRS employees to conduct the assessments. We found that a team of
           reviewers was not used for three of the risk assessments.
          Ensure that the risk assessment was completed by the IRS function or employees who
           possessed sufficient knowledge of the types of payments, requirements that need to be
           met to authorize the payment, or financial and administrative controls for processing the
           payments. One risk assessment of a refundable credit was assigned to the wrong IRS
           function for completion. Two of seven risk assessments were completed by a program
           analyst who did not have sufficient knowledge to respond to more than 30 percent of the
           questions on the Questionnaire. In addition, individuals in one IRS function indicated
           they would have answered several questions on two Questionnaires differently based on
           their knowledge of the programs.
          Maintain adequate documentation to support its responses on the Questionnaires.
           Department of the Treasury guidance states that its bureaus and offices are to maintain
           the results and documentation of all risk assessments for five years. The IRS was unable
           to provide adequate documentation to support responses on three of the risk assessments.
Because of missing or insufficient documentation, we are unable to determine the impact of the
IRS’s noncompliance with the Department of the Treasury’s guidance on the program fund risk
assessment scores.
The IRS Chief Financial Officer assigns each program fund selected for a risk assessment to a
responsible IRS executive for completion. However, there is no prescribed process to determine
which IRS executive or function is best qualified to complete the risk assessment. There is also
no prescribed process for determining who within the assigned IRS functions will work on the
team that should be convened to complete the risk assessments. As a result, the IRS cannot
ensure that the risk assessments are being completed by the individuals who are most
knowledgeable about the individual program funds.
The Federal Government is focused on ensuring that the right payment in the right amount is
provided to the right recipient. The annual improper payment risk assessment is one of the steps
in the Federal Government’s efforts to reduce improper payments. Without a strong assessment
tool and process, the IRS may be significantly underestimating the amount of improper payments
in tax administration. In addition, the IRS will have minimal accountability under the Improper
Payments Act or the IPERA for reducing improper payments in those programs.



20
     Each risk assessment may contain more than one error condition.
                                                                                              Page 9
                        Improper Payments Elimination and Recovery Act
                     Risk Assessments of Revenue Programs Are Unreliable



Recommendations
The Chief Financial Officer should:
Recommendation 1: Work with the Department of the Treasury, Office of the Deputy Chief
Financial Officer, Risk and Control Group, to better identify the IRS programs to be assessed for
improper payment risk and refine the Questionnaires to ensure that all questions are applicable to
tax administration and more accurately reflect the risks associated with tax refund payments.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief Financial Officer will work with the Department of the Treasury, Office of the
       Deputy Chief Financial Officer, Risk and Control Group, and the affected IRS business
       executives to identify the IRS programs that should be assessed for improper payment
       risk and will refine the Questionnaires that do not appropriately address applicable tax
       administration and tax refund payment risks.
       Office of Audit Comment: Although the IRS agreed with the recommendation, in its
       response the IRS stated that the documentation provided to us does confirm the Office of
       Management and Budget decision that the EITC is the only IRS tax program that should
       be reported under the IPERA. This decision was based on the fact that payments from
       tax refunds are included in the Tax Gap estimates in the overclaim rates and should
       continue to be reported and addressed as part of the overall plan for reducing the Tax
       Gap. However, the documentation provided to us shows that the Office of Management
       and Budget agrees tax refunds should be part of the IRS’s Tax Gap efforts; it does not
       support that the Office of Management and Budget has determined that the EITC is the
       only IRS tax program subject to the IPERA.
Recommendation 2: Establish a formal process for assigning responsibility for the
completion of the annual risk assessments for the selected IRS programs to the appropriate IRS
executive.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief Financial Officer will establish a more formalized process with IRS business
       executives for assigning responsibility and completing the annual risk assessments for the
       selected programs. The Chief Financial Officer will maintain oversight of the process to
       ensure that the annual risk assessments are completed timely and accurately.
Recommendation 3: Develop a process to ensure that the Department of the Treasury
guidance regarding the performance of risk assessments is being followed. The process should
(1) ensure that the members of the team completing the risk assessment collectively possess
knowledge of all aspects of the IRS program being reviewed, (2) include the type of
documentation to be relied upon when completing the assessment, and (3) ensure that
documentation is maintained for five years.


                                                                                          Page 10
                Improper Payments Elimination and Recovery Act
             Risk Assessments of Revenue Programs Are Unreliable



Management’s Response: IRS management agreed with this recommendation. The
Chief Financial Officer will work with the appropriate IRS business executives to
develop internal guidance to ensure that the Department of the Treasury guidance for
performing the annual risk assessments is being followed and ensure that those
completing the risk assessments have the proper knowledge of the programs being
reviewed. The guidance will also ensure that the appropriate program documentation is
being relied on to determine the associated risks and that it will be maintained for
five years.




                                                                              Page 11
                               Improper Payments Elimination and Recovery Act
                            Risk Assessments of Revenue Programs Are Unreliable



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the adequacy of the IRS’s Fiscal Year 2011
assessment of the risk of improper payments in the Treasury Fund Accounts identified by the
Department of the Treasury as part of the requirements of the IPERA.1 The scope of this review
included an analysis of the IPERA Risk Assessment Questionnaire for Fiscal Year 2011 used to
assess the risk within the identified fund accounts and an assessment of the actions taken by the
IRS to complete the risk assessments. To accomplish our objective, we:
I.         Assessed the effectiveness of the IRS’s risk assessment process used to identify programs
           that are susceptible to improper payments and provide a reasonable assessment of the
           level of risk associated with those programs.
           A. Met with the IRS Chief Financial Officer and obtained an understanding of the risk
              assessment process used to identify programs susceptible to improper payments,
              including the categorization of programs included in the assessment process.
           B. Determined if the risk assessment process used by the IRS adequately identifies
              programs that are susceptible to improper payments and provides a reasonable
              assessment of the level of risk associated with those programs.
                1. Identified the types of payments the risk assessment process evaluates.
                2. Because of limited resources, selected a judgmental sample2 of three of
                   12 administrative program funds and seven of 16 revenue program funds. We
                   selected the sample of administrative program funds based on the total
                   disbursements associated with the fund. We selected the sample of revenue
                   program funds based on total disbursements and prior TIGTA audit coverage.
                   We met with the technical individual(s) or team responsible for completing the
                   IPERA Risk Assessment Questionnaire for each of the administrative and revenue
                   program funds selected and obtained copies of the supporting documentation for
                   each of the responses, if available.
                3. Determined if the risk assessment for each of the administrative and revenue
                   program funds selected included enough analysis to evaluate the susceptibility of
                   specific programs to improper payments.



1
    Pub. L. 111-204, 124 Stat. 2224.
2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 12
                        Improper Payments Elimination and Recovery Act
                     Risk Assessments of Revenue Programs Are Unreliable



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: controls in place to ensure that the IRS
adequately assessed its programs for the risk of improper payments. We evaluated the controls
by reviewing the process used to identify IRS programs for assessment. In addition, we
reviewed a judgmental sample of completed administrative and revenue program fund risk
assessments.




                                                                                          Page 13
                       Improper Payments Elimination and Recovery Act
                    Risk Assessments of Revenue Programs Are Unreliable



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann Baiza, Acting Director
Sharla J. Robinson, Acting Audit Manager
Sandra L. Hinton, Lead Auditor
Gwendolyn S. Gilboy, Senior Auditor
Van A. Warmke, Senior Auditor
Evan A. Close, Auditor




                                                                                     Page 14
                       Improper Payments Elimination and Recovery Act
                    Risk Assessments of Revenue Programs Are Unreliable



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Assistant Deputy Commissioner for Operations Support OS
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Return Integrity and Correspondence Services, Wage and Investment Division
SE:W:RICS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI




                                                                                       Page 15
                             Improper Payments Elimination and Recovery Act
                          Risk Assessments of Revenue Programs Are Unreliable



                                                                                            Appendix IV

        Internal Revenue Service Programs Identified
           for Improper Payment Risk Assessments

The following IRS programs were identified by the Department of the Treasury for improper
payment risk assessments for Fiscal Year 2011.

                  IRS Program                             Type of Program                   Level of Risk
Affordable Health Care Program                                Administrative                      Low
Department of Transportation Federal Highway
                                                              Administrative                      Low
Administration Allocation Account
Federal Tax Lien Revolving Fund                               Administrative                      Low
Health Insurance Tax Credit (Two Funds)                       Administrative                      Low
Information Systems                                           Administrative                      Low
Information Technology Investments/
                                                              Administrative                      Low
Business Systems Modernization
Private Collection Agent Program                              Administrative                      Low
Recovery Act Administrative Expenses                          Administrative                      Low
Special Fund User Fees                                        Administrative                      Low
Tax Law Enforcement                                           Administrative                      Low
Taxpayer Services                                             Administrative                      Low
Alternative Minimum Tax Credit                                   Revenue                          Low
American Opportunity Tax Credit                                  Revenue                          Low
Build America Bond Payments                                      Revenue                          Low
Credits for Certain Government Employees                         Revenue                          Low
Additional Child Tax Credit                                      Revenue                          Low
Consolidated Omnibus Budget Reconciliation Act
                                                                 Revenue                          Low
(COBRA) Insurance
Corporation Refunds                                              Revenue                          Low
Earned Income Tax Credit                                         Revenue                         High1



1
  The IRS was not required to complete a Fiscal Year 2011 risk assessment for the EITC Program. The EITC
Program was previously determined to be high risk for improper payments, and the Department of the Treasury
reported on the EITC Program as a high-risk program in its Fiscal Year 2011 Annual Financial Report.
                                                                                                         Page 16
                             Improper Payments Elimination and Recovery Act
                          Risk Assessments of Revenue Programs Are Unreliable




                     IRS Program                     Type of Program   Level of Risk
 Grants for Investments in Qualified Therapeutic
                                                         Revenue           Low
 Projects in Lieu of Tax
 Health Care Credit                                      Revenue           Low
 Homebuyers Credit                                       Revenue           Low
 Informant Reimbursement                                 Revenue           Low
 Making Work Pay Credit                                  Revenue           Low
 Refund Collection                                       Revenue           Low
 Refund Collection Interest                              Revenue           Low
 Stimulus Disbursements                                  Revenue           Low
Source: IRS Office of the Chief Financial Officer.




                                                                                 Page 17
                        Improper Payments Elimination and Recovery Act
                     Risk Assessments of Revenue Programs Are Unreliable



                                                                                      Appendix V

  Treasury Inspector General for Tax Administration
      Reports Issued on Refundable Tax Credits

The TIGTA issued 12 reports between June 2010 and June 2012 that reported problems with the
IRS’s processing of refundable tax credits, listed below.
      Ref. No. 2010-41-069, Additional Steps Are Needed to Prevent and Recover Erroneous Claims
       for the First-Time Homebuyer Credit (June 2010).
      Ref. No. 2010-41-128, Verifying Eligibility for Certain New Tax Benefits Was a Challenge for the
       2010 Filing Season (Sept. 2010).
      Ref. No. 2011-41-002, Overall the Making Work Pay Credit Was Implemented As Intended by the
       Congress, but Resulted in Many Taxpayers Owing Taxes With Their Returns (Nov. 2010).
      Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to Reduce
       the Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year (Feb. 2011).
      Ref. No. 2011-40-032, Interim Results of the 2011 Filing Season (Mar. 2011).
      Ref. No. 2011-41-035, Administration of the First-Time Homebuyer Credit Indicates a Need for
       Improved Controls Over Refundable Credits (Mar. 2011).
      Ref. No. 2011-41-061, Individuals Who Are Not Authorized to Work in the United States Were
       Paid $4.2 Billion in Refundable Credits (Jul. 2011).
      Ref. No. 2011-41-083, Billions of Dollars in Education Credits Appear to Be Erroneous
       (Sept. 2011).
      Ref No. 2011-40-128, The Passage of Late Legislation and Incorrect Computer Programming
       Delayed Refunds for Some Taxpayers During the 2011 Filing Season (Sept. 2011).
      Ref. No. 2012-41-013, The Internal Revenue Service Disallowed Erroneous First-Time
       Homebuyer Credits Totaling $1.6 Billion; However, Its Examination Resources Could Have Been
       Used More Effectively (Feb. 2012).
      Ref. No. 2012-40-036, Interim Results of the 2012 Filing Season (Mar. 2012).
      Ref. No. 2012-40-065, Processes to Address Erroneous Adoption Credits Result in Increased
       Taxpayer Burden and Credits Allowed to Nonqualifying Individuals
       (June 2012).




                                                                                               Page 18
         Improper Payments Elimination and Recovery Act
      Risk Assessments of Revenue Programs Are Unreliable



                                                 Appendix VI

Management’s Response to the Draft Report




                                                        Page 19
   Improper Payments Elimination and Recovery Act
Risk Assessments of Revenue Programs Are Unreliable




                                                  Page 20
   Improper Payments Elimination and Recovery Act
Risk Assessments of Revenue Programs Are Unreliable




                                                  Page 21
